                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: I05100057                                                                       Page 1 of 1



         In October 2005, a pro-active review by NSF-OIG identified a prior NSF ward' as a possible
         high risk for fiaud. This was based on the fact that the award was terminated prematurely, with a
         significant amount of the initial funding still not obligated. After being notified that the award
         was being terminated, the ~niversitf requested additional h d s to close down the work and
         used all of the funds prior to closing the award. The original P.I. subsequently resigned and
         received a settlement fiom the University.

         During our investigation we conducted interviews of NSF staff associated with the award and the
         original Principal Investigator. We also reviewed documentation related to the award and its
         subsequent termination.

         The investigation did not identify any evidence indicating violations of either criminaucivil
         statutes or NSF policies and procedures. Therefore there is no need for any further action
         regarding this matter.

         Accordingly, this case is closed.




                                                                                                              1
NSF OIG Form 2 (1 1/02)
